BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 40 bound
copies and 1 unbound copy of the foregoing Brief for the
Partnership for Inner-City Education, Council of
Islamic Schools in North America, and National
Council of Young Israel as Amici Curiae in Support of
Petitioners in 20-1088, David and Amy Carson, as
parents and next friends of 0. C., and Troy and Angela
Nelson, as parents and next friends of A.N. and R.N., v.
A. Pender Makin, in her official capacity as
Commissioner of the Maine Department of Education,
were sent via Next Day Service to the U.S. Supreme
Court, and via Next Day Service to the following
parties listed below, this 10th day of September, 2021:
Michael Eugene Bindas
Institute for Justice
600 University Street
Suite 1730
Seattle, WA 98101
(206) 957-1300
mbindas@ij.org

Counsel for Petitioners
Sarah Ann Forster
Office of the Attorney General
6 State House Station
Augusta, ME 04333
(207) 626-8866
sarah.forster@maine.gov

Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Michael H. McGinley
Counsel of Record
Dechert LLP
1900 K Street, NW
Washington, DC 20006
(202) 261-3300
michael.mcginley@dechert.com
Nicole Stelle Garnett
Richard W. Garnett IV
John A. Meiser
Notre Dame Law School
Religious Liberty Initiative
Eck Hall of Law
Notre Dame, Indiana 46556
(574) 631-6981

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 10, 2021.

Donna J. W01£
Becker Gallag er Legal
· hing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

'$'tf:t;;;-)i~ I b I c) 0 o1

c)tlv t1 ~ /Jl,Ll.A_~

Notary Public

~

V

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
rebruary 14, 2023

